Supreme Court, U.S.
FILED

JUN i 5 2020
OFFICE OF THE CLERK

No.

IN THE SUPREME COURT OF THE
UNITED STATES

i;

C. Holmes
Petitioner;

v.
James Y. Becker, M. M. Caskey,
Mikell R. Scarborough, and
Haynsworth Sinkler Boyd, PA,
as successor to Sinkler & Boyd, PA,
Respondents,

ON PETITION FOR A WRIT OF CERTIORARI TO THE
U.S. COURT OF APPEALS FOR THE FOURTH CIRCUIT

C. Holmes
P.O. Box 187
Sullivans Island, SC 29482
843.883.3010

a

QUESTION PRESENTED
Whether the revised South Carolina Frivolous Proceedings Act (FPA),
S.C. Code § 15-36-10, is unconstitutional on its face or as applied in violation of the First,
Fifth, Seventh, Eighth, and/or Fourteenth Amendments.

TABLE OF CONTENTS

Opinions Below

1

Jurisdiction

1

Constitutional Provisions at Issue

1

State Statutory Provisions at Issue

3

Facts

4

Reasons for Granting the Writ of Certiorari.

7

Conclusion

37

INDEX TO APPENDICES

Appendix A

USAP4 decision

Appendix B

US District Court for the District of SC decision and
Report & Recommendation

Appendix C

USAP4 denial of Petition for Rehearing

Appendix D

State court decision filed February 9, 2017

TABLE OF AUTHORITIES
SUPREME COURT

Bates v. State Bar ofAriz., 433 U. S. 350, 380 (1977)

14

Broadrick v. Oklahoma, 413 U. S. 601, 615 (1973)

13,14

Cooter & Gell v. Hartmarx Corp., 496 U.S. 384, 402 (1990)

11,35

Dennis v. Sparks, 449 U.S. 24, 28-29 (1980)

34

Dombrowski v. Pfister, 380 U. S. 479, 491, and n. 7, 497- (1965)...

13

Exxon v. SaudiB.I.C., 544 U. S. 280 (2005)

17

Lance v. Dennis, 546 U.S. 459 (2006)

17

Members of City Council ofLos Angeles v. Taxpayers
for Vincent, 466 U. S. 789, 796 (1984)...................................

13

Mullane v. Cent. Hanover Bank & Trust Co., 339 U.S. 306 (1950).

27

NAACP v. Button, 371 U. S. 415, 433 (1963)

14

New York v. Ferber, 458 U. S. 747, 769, n. 24 (1982)

13

ODonoghue v. United States, 289 U.S. 516 (1933)

25

In re Primus, 436 U.S. 412 (1978)

12,16

Roell v. Withrow, 538 U.S. 580 (2003)

24

Scha umburg v. Citizens for a Better Environment,
444 U. S. 620, 634 (1980)

14

Skinner v. Switzer, 562 U.S. 521 (2011)

17

Thompson v. City ofLouisville, 362 U.S. 199 (i960)

4

Timbs v. Indiana, 586 U.S.__, 139 S. Ct. 682 (2019).......

12,15,16

Turner v. Rogers, 564 U.S. 431 (2011)

12,15

United States v. Olano, 507 U.S. 725 (1993)

26

FEDERAL COURTS

Afewerki v. Anaya Law Grp., 868 F.3d 771 (9th Cir., 2017)

32

Allied Colloids, Inc. v. Jadair, Inc., 139 F.3d 887 (4th Cir. 1998)

21

Bloom v. I.C. Sys., Inc., 972 F.2d 1067, 1068 (9th Cir.1992)

30

Blue Cross and Blue Shield v. Philip Morris, Inc.,
141 F.Supp.2d 320 (E.D.N.Y.2001)

9

Boosahda v. Providence Dane LLC, 462F. App'x 331,
333 n. 3 (4th Cir. 2012)

31

Branch v. Umphenour, No. 17-15369 (9th Cir. 2019)
(filed Sept. 5, 2019)

26

Brandstein v. White Lamps, Inc., 20 F.Supp. 369,
370 (S.D.N.Y.1937)
Cuthbertson v. Biggers Bros., Inc., 702 F.2d 454,

21

459 (4th Cir. 1983)
Dasher v. Stripling.; 685 F.2d 385 (llth Cir., 1982)

25
20

Elmco Props., Inc. v. Second Natl Fed. Sav. Ass'n, 94 F.3d 914
(4th Cir. 1996)
In re Empire Refining Co., 1 F.Supp. 548, 549 (SD Cal.1932)

27
21

First Chicago Inti v. United Exchange Co., 836 F. (2d) 1375
(D.C. Cir. 1988)..... .........................................................

29

Garner v. ClaimAssist, LLC(D. Md., 2018) (Aug. 9, 2018)....

31

Gary Plastic Packaging v. Merrill Lynch, P, F & S, Inc.,
756 F2d 230 (2d Cir.1985).............................................

29

Hamilton v. United Healthcare ofLouisiana, Inc.,
310 F.3d 385 (5th Cir. 2002)......................................

30

Hulsey v. Cisa, 947 F.3d 246 (4th Cir., January 17, 2020).

16

Jones v. Niagara Frontier Transp. Authority, 722 F.2d 20
(2nd Cir., 1983)...........................................................
Laber v. Harvey, 438 F.3d 404, 426—27 (4th Cir. 2006).....

21,22
36

Mabe v. G. C. Services Ltd. Partnership,
32 F.3d 86 (4th Cir., 1994)........................

30

McCray v. SamuelI. White, PC. (D. Md., 2017)
(March 31, 2017)........................................

32

Miller v. McCalla, 214 F.3d 872 (7th Cir., 2000)

30

Nipper v. Snipes, 7 F.3d 415 (4th Cir. 1993)......

9,10

Philip Morris, 141 F.Supp.2d 320

10

Powell v. Palisades Acquisition XVI, LLC,
782 F.3d 119 (4th Cir. 2014)

31,32

Rowland v. California Men's Colony, 506 U.S. 194 (1993)...........

21

Ruggia v. Wash. Mut., 719 F.Supp.2d 642, 647 (E.D. Va. 2010) ..

31

Russell v. Absolute Collection Servs., Inc.,
763 F. 3d 385 (4th Cir. 2014).

31

Shapiro, Bernstein & Co. v. Continental Record Co.,
386 F.2d 426 (2d Cir. 1967)

21

Simer v. Rios, 661 F.2d 655 (7th Cir.1981)

27

Southwest Express Co. v. ICC, 670 F.2d 53, 55 (5th Cir.1982)....

21

Staub v. Harris, 626 F.2d 275, 278 (3d Cir.1980)

30

Stewart v. Bierman, 859 F.Supp.2d 754, 759 (D. Md. 2012).

31

Strand Restaurant Co. v. Parks Engineering Co.,
91 A.2d 711 (D.C.1952)

21

Taylor v. Javitch, Block & Rathbone, LLC
(N.D. Ohio, 2012)

30

Thana v. Bd. ofLicense Comm 'rs for Charles Cnty.
827 F.3d 314 (4th Cir., 2016)

17

Tierney v. Unique Mgmt. Servs., Inc., (D. S.C., 2016)

29

United States v. Heath, 419 F.3d 1312, 1316 (llth Cir., 2005)..

26

US. V. Jones, 29 F.3d 1549 (llth Cir. 1994)

9

United States v. Minor, 228 F.3d 352, 356 (4th Cir.2000)

27

United States v. Olano, 507 U.S. 725, 734 (1993).............

26

US. Steel, LLCv. Tieco, Inc., 261 F.3d 1275 (llth Cir. 2001)..

9,10

Watson v. Southern Ry. Co., 420 F. Supp. 483 (D.S.C. 1975)....

28

Webster v. ACB Receivables Mgmt., Inc.
15 F. Supp. 3d 619, 625 (D. Md. 2014)
Wimmer v. Cook, 774 F.2d 68 (4th Cir., 1985)

31
24,25

Zimmerman v. HBO Affiliate Group,
29,30

834 F.2d 1163 (3d Cir.1987)

STATE COURTS
Baughman v. AT&T Co., 410 S.E.2d 537, 306 S.C. 101 (1991)

28

Brooks v. SCCID and OID, S. C. Court of Appeals, decided
February 15, 2017, App. Case No. 2014'002477

19,22

Hagood v. Sommerville, 362 S.C. 191, 607 S.E.2d 707 (2005)

19,22

Holloman v. McAllister, 289 S.C. 183, 186,
345 S.E.2d 728 (1986)

28

In re Hospital Pricing Litigation, 377 S. C. 48,
659 S.E.2d 131 (2008)

4

Mizell v. Glover, 351 S.C. 392, 57 S.E.2d 176 (S.C. 2002)

10

Moya Enterprises, Inc. v. Harry Anderson Trucking, Inc.,
162 Ga.App. 39, 290 S.E.2d 145 (1982)

21

Pee Dee Health Care, P.A., v. Estate of Thompson, 418 S.C. 557
795 S.E.2d 40 (S.C.App. 2016).............................. ••.............

35

In re Ruffin, 363 S.C. 347, 610 S.E.2d 803 (2005)........................

5,9

Southeastern Site Prep, LLC, v. Atlantic Coastal Builders and Cont,
LLC, 394 S.C. 97, 713 S.E.2d 650 (S.C. App. 2011)...........
State v. Cooper, 342 S.C. 389, 536 S.E.2d 870 (2000)...................

6,8,11,13
6,35

Toyota of Florence, Inc. v. Lynch, 314 S.C. 257,
442 S.E.2d 611 (1994)................................................

34,35

STATUTES AND RULES

15 U.S.C. § 1692g................

31

15 U.S.C. § 1692k(a)(l), (a)(3)

31

28 U.S.C. § 1654 (1976)........

21

28 U.S.C. § 636(b)(3)............

26

28 U.S.C. § 1654

21

42 U.S.C § 1983

4

S.C. Code § 15-36-10 (2009)

4,8,12

S.C. Code § 15-36-10 through 15-36-50 (2005)

6,13

S.C. Code § 18-9-130

35

Fed.R.Civ.P., Rule 15(a)

36

Fed.R.Civ.P., Local Civil Rule 73.02(B)(2) (D. S.C.)

24

SCRCP, Rule 11

13

SCACR, Rule 265(c)

23

SCACR, Rule 268(d)(2)

10,16

SCACR, Rule 407, Rule 3.7

20,22

OTHER
9A T. Bjur & C. Slezak, Fletcher Cyclopedia
Corporations § 4629 (Perm ed. 1992).............................

21

6 Moore's Federal Practice Tf 56.02[6], p. 56-39 (2d) ed. 1990)..

29

Toal et al., Appellate Practice in South Carolina (3d ed. 2016)

6,36

5 John H.Wigmore, Wigmore on Evidence § 1671a
(James H. Chadbourn rev.1974)...................

10

10A Wright & Miller, Federal Practice and
Procedure § 2741 (1983)...............................

29

OPINIONS BELOW
The unpublished Order on appeal in this matter is dated November 25, 2019.
Petition for Rehearing was denied on January 21, 2020. The March 19, 2020, order of this
Court provides extension to file 150 days after the Petition for Rehearing was denied.

JURISDICTION

The United States Court of Appeals Petition for Rehearing was denied by order
filed January 21, 2020. This Court’s jurisdiction rests on 28 U.S.C. § 1254(l).

CONSTITUTIONAL PROVISIONS AT ISSUE
Amendment I
Religion and Expression
Congress shall make no law respecting an establishment of religion, or prohibiting
the free exercise thereof; or abridging the freedom of speech, or of the press! or the right
of the people peaceably to assemble, and to petition the Government for a redress of
grievances.

1

Amendment V

From the Bill of Rights
No person shall be held to answer for a capital, or otherwise infamous
crime, unless on a presentment or indictment of a Grand Jury, except in cases
arising in the land or naval forces, or in the Militia, when in actual service in time
of War or public danger; nor shall any person be subject for the same offense to be
twice put in jeopardy of life or limb; nor shall be compelled in any criminal case to
be a witness against himself, nor be deprived of life, liberty, or property, without
due process of law; nor shall private property be taken for public use, without just
compensation.

Amendment VII

Civil Trials

In Suits at common law, where the value in controversy shall exceed twenty
dollars, the right of trial by jury shall be preserved, and no fact tried by a jury, shall be
otherwise reexamined in any Court of the United States, than according to the rules of
common law.

2

Amendment VIII.

Excessive Punishments Strictly Prohibited

Excessive bail shall not be required, nor excessive fines imposed, nor cruel and
unusual punishments inflicted.

Amendment XIV.

Rights Guaranteed:
Privileges and Immunity of Citizenship,
Due Process, and Equal Protection.

SECTION I. 1. All persons born or naturalized in the United States and subject to
the jurisdiction thereof, are citizens of the United States and of the State wherein they
reside. No State shall make or enforce any law which shall abridge the privileges or
immunities of citizens of the United States nor shall any State deprive any person of life,
liberty, or property, without due process of law; nor deny to any person within its
jurisdiction the equal protection of the laws.

STATE STATUTORY PROVISIONS AT ISSUE
SCFPA:

S.C. Code Ann. § 15-36-10 through 15-36-50 (2005).

Revised SCFPA:

S.C. Code Ann. § 15-36-10 (Supp. 2009).

3

STATEMENT OF THE CASE

Petitioner challenges respondents’ wrongdoing regarding the February 9, 2017,
order, copy attached, which respondents admit is pending appeal in the state court and
for which there is no decision from the state court of last resort. This matter involves 42
USC 1983, facial and as applied constitutional challenge to the revised S.C. Code § 15-3610, and other claims.
The suit giving rise to the underlying legal malpractice claims was filed by
Defendant Becker in Federal Court but dismissed because necessary parties were not
named and because a corporation cannot conspire with itself. The underlying
Haynsworth (as successor) legal malpractice case arose from Sinkler & Boyd’s
malfeasance in Federal Court. When that case was essentially transferred to state court,
Sinkler & Boyd’s, Bill Boyd, now with Haynsworth, had a state court complaint drafted,
delivered it to the petitioner, and advised the petitioner to file it pro se. Members of the
firm stated they did not want to sue hospitals. On information and belief, the conflict of
interest arose over the anticipated and/or concurrent representation of a hospital,
including but not limited to, In re Hospital Pricing Litigation, 377 S. C. 48, 659 S.E.2d
131 (2008).
Though compromised and in consideration of the duty to mitigate, the state court
case was resolved in petitioner’s favor. The settlement agreement was entered on the
record with the court retaining jurisdiction to enforce it. When the hospital breached the
terms of the settlement agreement to follow the bylaws in good faith, counsel of record

4

filed suit. Though counsel of record signed the complaint, filed it, and certified the case is
not frivolous, counsel of record was not sanctioned. Despite petitioner’s reliance in good
faith on counsel’s certification, petitioner was sanctioned for filing a frivolous claim. See
In re Ruffin, 363 S. C. 347, 610 S. E. 2d 803 (2005) (Court found lawyer did not violate
Rule 3.1 in filing a meritless complaint because there was no clear and convincing
evidence of the misconduct; the lawyer relied on the advice of his attorney). The state
court judge in that case acknowledged on the record that SCCLC and ODC meddled in
that pending litigation, which was done to gain collateral advantage for private parties.
Transcript available on request. The unconstitutional retroactive application of the
revised SCFPA in that case was then wrongfully used, while stayed on appeal, as a basis
for unconstitutional retroactive application of the revised SCFPA in favor of malpractice
defendants Haynsworth Sinkler Boyd, PA, then Chief Justice Jean Hoefer Toal’s well"
publicized former employer and mentor. Motion to recuse was denied by Toal without
comment.
Hsb defendants’ professional negligence in that matter gave rise to the legal
malpractice claim, breach of contract, and other claims in state court, which were filed in
2002 under Case No. 2002-CP"10"01448 and, after reversal of defendants’ wrongful
change of venue, under Case No. 2007-CP" 10-01444. Defendants’ own legal malpractice
expert Professor John Freemen was asked on the witness stand at trial if hsb defendants’
conduct complied with the standard of care. Defendants’ own legal malpractice expert
Professor John Freemen testified under oath; “No, ma’am. Let me be real clear on this. I
consider that would be unethical. I consider that would be a form of blackmail or

5

extortion and criminal in South Carolina to do that.” Accordingly, a jury should and
would reasonably conclude that hsb defendants’ criminal as well as other malfeasance is
a deviation from the standard of care and/or unconscionable.
Independent outside counsel for defendant corporation in the underlying legal
malpractice case answered and entered no counterclaim for outstanding fees or other
claims because there were none. Even if there had been outstanding fees or other claims,
which petitioner denies, all were waived. The trial court denied defendant corporation’s
motion for summary judgment, thereby precluding sanctions and precluding a finding
that plaintiffs legal malpractice and other claims are frivolous under the prior FPA then
in effect, S.C. Code § 15-36*10 through 15-36-50. See Southeastern Site Prep v. Atlantic
Coastal Builders and Contractors, LLC, 394 S.C. 97, 107, 713 S.E.2d 650, 655 (S.C. App.
2011). But for the unconstitutional retroactive application of the revised FPA, pursuant
to defendants’ misrepresentations that the wrong FPA statute applied, we would not be
here. The underlying matter ended in directed verdict for defendants with no money
judgment. The FPA matter is not a “money judgment” in the underlying claim within the
contemplation of S.C. Code Section 18-9-130; rather the matter is incidental/collateral to
the underlying claim. State v. Cooper, 342 S.C. 389, 536 S.E.2d 870 (2000); Toal et al,
Appellate Practice in South Carolina, 3rd edition (2016), p. 341. “(T)he decision of whether
to award sanctions is a collateral issue and does not constitute a ruling upon the merits of
the case. ...See Cooter & Gell v. Hartmarx Corp., 496 U.S. 394, 396, 110 S.Ct. 2447, 110
L.Ed.2d 359 (1990).” Pee Dee Health Care, P.A., v. Estate of Thompson, 418 S.C. 557, 795
S.E.2d 40 (S.C.App. 2016).

6

Reasons for Granting the Writ of Certiorari

I. Introduction
In February of last year, the Great Statesman, Rep. Elijah Cummings, may he rest
in peace, observed, “When we're dancing with the angels, the question will be asked, in
2019, what did we do to make sure we kept our democracy intact?” It is fitting to
remember his fife time of unremitting bravery and courage. It is fitting, as well, to
remember the beginnings of that democracy. The framers of our state and Federal
Constitutions risked life, limb, and liberty to escape abuses by the British government.
They deliberately crafted both state and Federal constitutions to foreclose those abuses
here. The framers did not need computers, tablets, or cell phones to discern the basic
tenets of fundamental fairness and due process. An impartial decision-maker was seen
as a non-negotiable requirement for preventing such abuses. The letter and spirit of our
cherished Constitution categorically prohibit deprivation of life, liberty, or property
without due process of law, nor shall any person be denied equal protection of the laws.
The right of trial by jury shall be preserved inviolate. As a corollary, another
requirement, deemed mandatory and prohibitory, is that no single individual, whether
British monarch or government official, shall have absolute authority over a citizen’s life,
liberty, or property without being subject to the right of appeal with meaningful judicial
review. Judge J. Waties Waring, the renowned crafter of divine dissents lying in repose in
Charleston, must be turning over in his grave at the historically persistent lawlessness of
the courthouse bearing his name. It is respectfully submitted our democracy depends on
7

the basic tenets of fundamental fairness and due process just as much, if not more so, in
’ this age of cell phones, tablets, and computers. The Constitution prohibits the revised
S.C. Code § 15-36-10 (FPA). See Cooter & Gell v. Hartmarx Corp., 496 U.S. 384, 402, 110
S.Ct. 2447, 110 L.Ed.2d 359, 58 USLW 4763 (l990)(the lack of any legal requirement
other than the talismanic recitation of ‘“frivoloud will foreclose meaningful review.”
(emphasis supplied)). The FPA is used herein to deny trial by jury, meaningful
opportunity to be heard, adequate record for appellate review, the right to defend, the
right to present evidence and call witnesses, and the right to self-representation. The
FPA cannot pass constitutional muster.

II. Constitutional Challenge to the revised S.C. Code § 15-36-10.
The instant case includes challenge to the constitutionality of the revised S.C.
Code § 15-36-10 (hereinafter FPA) on its face and as applied. But for the
unconstitutional retroactive application of the revised SCFPA, we would not be here. Is
it any wonder attorneys are at each others throats over the revised SCFPA? As set forth
more fully below, the revised SCFPA cannot pass constitutional muster including, but not
limited to, its censorship, denial of right to trial by jury, and/or violation of the Eighth
Amendment’s prohibition against cruel and unusual punishment: “the court orders the
Clerk of Court’s office to strike all motions filed by the petitioner in this matter as well as
all future motions.” Referee/master’s ex parte order, copy attached, entered February 9,
2017 (emphasis supplied). Moreover, the referee/master unlawfully confiscated the
unearned filing fees required for each motion while at the same time giving respondents
8

a “free pass” by failing to require mandatory, jurisdictional filing fees, which any other
litigant or lawyer would be required to pay, thereby evidencing claims of unofficial
wrongdoing by Referee/Master Mikell Scarborough. Discovery is indicated. These issues
of great public importance are capable of repetition and capable of evading judicial review
while undercutting appearance of a disinterested court.
Petitioner challenges respondents’ wrongdoing and the ex parte February 9, 2017,
order, which states there was a hearing; however, there was no notice, no opportunity to
be heard, and no exigent or other circumstances even alleged to legally authorize ex parte
order: “This action came to trial or hearing before the court. The issues have been tried or
heard and a decision rendered.” Ex parte February 9, 2017, order, copy attached. The
referee/master knew or should have known not to make these material
misrepresentations and/or false statements, also evidencing claims of unofficial
wrongdoing. That February 9, 2017, order expressly relies on an unspecified, unnamed,
unpublished December 3, 2009, order without case number, without caption, and without
citation. In fact, there is no December 3, 2009, order under that case number, and as per
the Advance Sheets, there is no S. C. Supreme Court order filed December 3, 2009, at all.
An unspecified, unpublished December 3, 2009, order is untrustworthy hearsay. In Mizell
v. Glover, infra, the South Carolina Supreme Court stated: “ We find persuasive the
jurisprudence developed by the Fourth Circuit and other federal courts which have
recognized that judicial findings of fact from one trial constitute hearsay when offered for
admission in the context of another trial. See Nipper v. Snipes, 7 F.3d 415 (4th Cir. 1993);
US. Steel, LLC v. Tieco, Inc., 261 F.3d 1275 (llth Cir. 2001); US. v. Jones, 29 F.3d 1549
(11th Cir. 1994); Blue Cross and Blue Shield v. Philip Morris, Inc., 141 F.Supp.2d 320
9

(E.D.N.Y.200l).[8] In Nipper; the Fourth Circuit held that judicial findings constitute
hearsay and do not fall within any of the exceptions to the hearsay rule, including the
exception for public records, Rule 803(8), FRE. Nipper. The Fourth Circuit made clear
that its holding was firmly rooted in the common law. Id. (Citing 5 John H. Wigmore,
Wigmore on Evidence § 1671a (James H. Chadbourn rev.1974) (citations omitted)).”
Mizell v. Glover; 351 S.C. 392, 57 S.E.2d 176 (S.C. 2002). “The federal courts addressing
this issue point to the great weight and obvious prejudicial effect that credibility
assessments of witnesses by judges have on subsequent juries. See Philip Morris, 141
F.Supp.2d 320 (denying admission of a judge's statement regarding credibility of expert
witness for impeachment of that expert at a subsequent trial). Although Philip Morris
involved the credibility assessment of a judge and not the assessment of a jury, the jury's
factual finding introduced in this case is hearsay nonetheless, and we believe, is equally
prejudicial. See U.S. Steel v. Tieco (finding appellants were prejudiced by the admission
of a previous judge's factual opinion into a subsequent trial because appellees relied on
the opinion throughout the trial and advised the jury during closing argument to use the
opinion to make their own credibility determinations).” Mizell v. Glover, 351 S.C. 392,
570 S.E.2d 176 (S.C. 2002). The consideration of hearsay in the form of a court order
from an unspecified, unnamed, unpublished December 3, 2009, order without case
number, without caption, and without citation is contrary to state and Federal
constitutional due process safeguards. Unpublished orders have no precedential value
and should not be cited except in proceedings in which they are directly involved. Rule
268(d)(2), SCACR. Respondents all in concert knew or should have known unpublished
orders are not to be relied on in any other case.
10

Respondents provided a cropped version of an unpublished, unrelated John Doe
order dated December 2, 2009. Despite the fact the Haynsworth SCFPA order was then
stayed on appeal, that John Doe order recites and relies on footnote 2 with no citation,
source, or authority for that footnote, which is lifted from the Haynsworth order then
stayed on appeal. But for the unconstitutional retroactive application of the revised
SCFPA, there would be no John Doe order because that order was issued as a result of
the inapplicable revised SCFPA provision for reporting to the appellate courts and to
ODC, which should have been stayed pending appeal. The appellate court then
effectively decided the Haynsworth appeal, not on briefs, but by issuing a John Doe order
without consideration of the merits or the record on appeal (ROA), which had not yet
been filed, thereby denying meaningful, objective appellate review. That John Doe order
was then used to deny appeal of that very Haynsworth order (attached) in the South
Carolina Court of Appeals. On its face, it is clear there is no record to support that John
Doe order, which is reversible abuse of discretion. Haynsworth unilaterally drafted its
own legal malpractice order which does not reflect the proceedings or the facts. Trial
transcript available on request. Accordingly, this Court should find the revised SCFPA is
unconstitutional on its face and as applied because it thwarts/prevents meaningful,
objective appellate review. See Cooter & Gell v. Hartmarx Corp., 496 U.S. 384, 402, 110
S.Ct. 2447, 110 L.Ed.2d 359, 58 USLW 4763 (l990)(the lack of any legal requirement
other than the talismanic recitation of “‘frivoloud will foreclose meaningful review.”
(emphasis supplied)).
Respondents acted all in concert under color of state law to benefit private parties
by depriving the petitioner of individual, property, and constitutional rights including,
11

but not limited to, meaningful opportunity to be heard:

Defendant Scarborough: “We’re here for supplemental proceedings....to determine what
assets, if any, are available to satisfy the judgment.” Transcript of March 10, 2017,
hearing, p. 4, line 12.
Defendant Scarborough: “Would you like me to put you under oath and have you testify
as to your assets? That’s really what we’re here for. Would you like me to do that?”
Transcript of March 10, 2017, hearing, p. 16, lines 9-12.
Petitioner: “Yes, I have the information that you requested for me to bring. I’m happy to
do that.” Transcript of March 10, 2017, hearing, p. 16, lines 13-15.
Defendant Scarborough: “If I have to sit here and listen to your testimony of what your
assets are, they’re going to disappear in the courtroom at the time. Okay? That’s what I’m
going to do. All right?” Transcript of March 10, 2017, hearing, p. 23, lines 7-11.

Unable to file due to the February 9, 2017 order, copy attached, the petitioner timely
appeared, offered the requested information, and requested to be heard but was denied.
See denial of filing based upon the ex parte February 9, 2017, order, copy attached.
Important public issues support the petition herein. Compare In re Primus, 436 U.S. 412,
98 S.Ct. 1893, 56 L.Ed.2d 417 (1978) (the First Amendment provides limits); Timbs v.
Indiana, 586 U.S.__, 139 S. Ct. 682 (2019) (excessive punishments are strictly prohibited
under the Eighth Amendment); Turner v. Rogers, 564 U.S. 431 (2011).
Further, the revised SCFPA denies a full and fair hearing at trial by jury and
effectively denies a neutral decision-maker. Moreover, in this case, the revised SCFPA,
S.C. Code § 15-36-10, is not applicable to the underlying legal malpractice claims against
respondents because the claims arose prior to the effective date of the revised SCFPA.

12

See Southeastern Site Prep v. Atlantic Coastal Builders and Contractors, LLC, 394 S.C.
97, 107, 713 S.E.2d 650, 655 (S.C. App. 2011). Under the applicable SCFPA, S.C. Code §
15-36-10 to 50, Judge Hughston’s denial of respondents’ motion for summary judgment
precludes sanctions. Judge Hughston wrote, “Given my opportunities to observe and
hear Dr. Holmes, I have no doubt she is sincere in her beliefs about this case,” and he
found there is no “intent to harm,” which precludes sanctions under the applicable
SCFPA, S.C. Code § 15-36-10 to 50, then in effect and precludes sanctions under Rule 11,
SCRCP. Defendants’ Entry No. 27, Ex. 1, p. 11. But for the unconstitutional retroactive
application of the revised SCFPA, we would not be here. The revised SCFPA cannot pass
constitutional muster.
In addition, the revised SCFPA’s “reasonable attorney standard” is not fair notice
to the public at large or to parties. The First Amendment doctrine of overbreadth is an
exception to this Court’s normal rule regarding the standards for facial challenges. See
Members of City Council ofLos Angeles v. Taxpayers for Vincent, 466 U. S. 789, 796
(1984). The showing that a law punishes a "substantial" amount of protected free speech,
"judged in relation to the statute's plainly legitimate sweep," Broadrick v. Oklahoma, 413
U. S. 601, 615 (1973), suffices to invalidate all enforcement of that law, "until and unless
a limiting construction or partial invalidation so narrows it as to remove the seeming
threat or deterrence to constitutionally protected expression," id., at 613. See also New
York v. Berber, 458 U. S. 747, 769, n. 24 (1982); Dombrowski v. Pfister, 380 U. S. 479
491, and n. 7, 497 (1965).
The Court has provided this expansive remedy out of concern that the threat of

13

enforcement of an overbroad law may deter or "chill" constitutionally protected speech-especially when the overbroad statute imposes monetary civil sanctions. See Schaumburg
v. Citizens for a Better Environment, 444 U. S. 620, 634 (1980); Bates v. State Bar of
Ariz., 433 U. S. 350, 380 (1977); NAACP v. Button, 371 U. S. 415, 433 (1963). Many
persons, rather than undertake the considerable burden (and sometimes risk) of
vindicating their rights through litigation, will choose simply to abstain from protected
speech for fear of financial loss-'harming not only themselves but society as a whole,
which is deprived of an uninhibited marketplace of ideas. Overbreadth adjudication, by
suspending all enforcement of an overinclusive law, reduces these social costs caused by
the withholding of protected speech.
As this Court noted in Broadrick, however, there comes a point at which the
chilling effect of an overbroad law, significant though it may be, cannot justify prohibiting
all enforcement of that lawparticularly a law that reflects "legitimate state interests in
maintaining comprehensive controls over harmful, constitutionally unprotected conduct."
413 U. S., at 615. For there are substantial social costs created by the overbreadth
doctrine when it blocks application of a law to constitutionally unprotected speech, or
especially to constitutionally unprotected conduct. To ensure that these costs do not
swallow the social benefits of declaring a law "overbroad," the Court has insisted that a
law's application to protected speech be "substantial," not only in an absolute sense, but
also relative to the scope of the law's plainly legitimate applications, before applying the
doctrine of overbreadth invalidation. Id. at 613. This Court is respectfully requested to
exercise its jurisdiction to grant review.

14

III. A change in the law occurred.
A change in the law has occurred. Specifically, Timbs v. Indiana, 586 U.S.
(2019) recognized that states may not impose constitutionally excessive monetary and
non-monetary punishments in violation of the Eighth and Fourteenth Amendments. But
• for the unconstitutional retroactive application of the revised SCFPA, we would not be
here,' the state imposed constitutionally excessive monetary and non-monetary
punishments herein in violation of the Eighth and Fourteenth Amendments. The less
burdensome legal standard for the inapplicable revised SCFPA was retroactively applied
and is reversible as a matter of law. See Southeastern Site Prep v. Atlantic Coastal
Builders and Contractors, LLC, 394 S.C. 97, 107, 713 S.E.2d 650, 655 (S.C. App. 2011).
Moreover, the revised SCFPA is unconstitutional on its face and as applied including, but
not limited to, failure to require a determination of ability to pay which led to the
constitutionally excessive fine. Though timely raised, these issues have not been
addressed. It is respectfully submitted the unconstitutional retroactive application of the
revised SCFPA resulted in constitutionally excessive monetary and non-monetary
punishments in violation of the Eighth and Fourteenth Amendments raising issues of
exceptional importance. Moreover, even assuming the less burdensome legal standard in
the revised SCFPA is applicable, which appellant disputes, the non-monetary and
monetary punishments are constitutionally excessive based on prejudice, passion, or
other constitutionally prohibited reason in violation of constitutional safeguards and the
Eighth and Fourteenth Amendments. Compare Turner v. Rogers, 564 U.S. 431 (2011).

15

See In re Primus, 436 U.S. 412, 98 S.Ct. 1893, 56 L.Ed.2d 417 (1978) (the First
Amendment provides limits). See Timbs v. Indians, 586 U.S._, 139 S. Ct. 682 (2019)
(excessive punishments are strictly prohibited under the Eighth Amendment).
In addition, the Fourth Circuit has since reversed the Eastern Division of the
District Court of South Carolina based on misapprehension and/or overreach of the
Rooker-Feldman doctrine. Like the recent Hulsey case, the instant case does not fall
within the Rooker - Feldman doctrine’s narrow scope, for multiple independent reasons
including but not limited to, because the injury herein is caused by defendants all in
concert conspiring to cause harm by misrepresenting an unspecified, unpublished order
from an unrelated case. Hulsey v. Cisa, 947 F.3d 246 (4th Cir. 2020). Unpublished orders
have no precedential value and should not be cited except in proceedings in which they
are directly involved. Rule 268(d)(2), SCACR. Accordingly, new case law supports
reversal.

IV. The Rooker-Feldman doctrine is inapplicable.
As noted above, new case law ruled the Rooker-Feldman doctrine is inapplicable
under the same or similar facts. Hulsey v. Cisa, 947 F.3d 246 (4th Cir., January 17
2020). There is conflict in the Fourth Circuit regarding the disparate rulings under the
same or similar fact pattern in Hulsey, this Court is requested to grant review regarding
consistency. Id. Plaintiff challenges defendants’ wrongdoing pursuant to the revised
SCFPA and the February 9, 2017, order, copy attached, which defendants admit is on
appeal and for which there is no decision by the state court of last resort.

16

The magistrate dismissed due to the Rooker-Feldman doctrine based on false
evidence admittedly outside the record from the internet cited in Footnote 10 on page 9 of
the R&R filed on October 31, 2018. The magistrate relied on false information regarding
a false remittitur wrongfully posted by defendants all in concert on the county
government public website in October 2018. A jury should and would find that the false
remittitur was wrongfully published by defendants all in concert to obtain dismissal
herein. It is evidence consistent with intentional wrongdoing. Discovery is indicated. A
pattern and practice has emerged of defendants’ wrongdoing all in concert to cause entry
of altered/erroneous information on the county government’s public website, under color
of state law to benefit private parties. Serious questions are raised regarding direct or
indirect ex parte communication of false information to the district court over the
internet and outside the record by and through the federal magistrate. Petitioner is
prejudiced by wrongful dismissal and denial of timely request for notice and opportunity
to respond to the magistrate’s unlawful search and solicitation over the internet.
The case of Thana v. Bd. ofLicense Comm'rs for Charles Cnty., 827 F.3d 314 (4th
Cir., 2016) provides as follows^
To emphasize the narrow role that the Rooker -Feldman doctrine is to play, the Supreme
Court has noted repeatedly that, since the decisions in Rooker and Feldman , it has never
applied the doctrine to deprive a district court of subject matter jurisdiction. See, e.g. ,
Skinner v. Switzer, 562 U.S. 521, 531, 131 S.Ct. 1289, 179 L.Ed.2d 233 (2011); Lance,
546 U.S. at 464, 126 S.Ct. 1198; Exxon, 544 U.S. at 287, 125 S.Ct. 1517. Similarly, since
Exxon, we have never, in a published opinion, held that a district court lacked subject
matter jurisdiction under the Rooker -Feldman doctrine. ...
In the circumstances of this case, we conclude that this federal action is a concurrent,
independent action supported by original jurisdiction conferred by Congress on federal
district courts, even though the complaint in the action includes claims and legal
arguments similar to or the same as those made in the state proceedings, and that
therefore it is not barred by the Rooker -Feldman doctrine.
17

Thana v. Bd. ofLicense Comm 'rs for Charles Cnty., 827 F.3d 314 (4th Cir., 2016).

Even under the now rejected, overly expansive application of the R-F doctrine prior
to Exxon, supra, the facts in this case are consistent with the 1997 4th Circuit case in
Jordahl v. Democratic Party of Va., 122 F.3d 192, 202 (4th Cir.1997). The case herein
does not seek review of a state court decision by the state court of last resort because
there is no decision by the state court of last resort on the February 9, 2017, order;
instead, the challenge is to the process by which the state court decisions resulted, which
is within the express legislative intent and jurisdiction of the district court.
In Washington v. Wilmore, 407 F.3d 274 (4th Cir., 2005) (after Exxon, supra,), the
4th Circuit cited Jordahl v. Democratic Party of Va., 122. F.3d 192, 202 (4th Cir.1997), and
distinguished between actions seeking review of the state court decisions themselves and
those cases challenging the constitutionality of the process by which the state court
decisions resulted. Similarly, the plaintiffs claims herein rest not on a state court
judgment itself, but rather on challenge to the constitutionality of the process by which
the state court decisions resulted and to the revised SCFPA on its face and/or as applied
as well as other deficiencies. Accordingly, the Rooker -Feldman doctrine is not applicable
and the lower court orders should be reversed.

V. Motion to disqualify conflicted pro se co-defendant advocate-witness should be granted.

Specifically, the magistrate denied “at this time” the motion to strike and to

18

disqualify conflicted pro se co-defendant advocate-witness. Thereafter, the record reflects
the conflicted pro se co-defendant advocate-witness’s unsworn testimony, “(T)here is no
loan.” Entry No. 27, p. 4. The demand letter, signed by conflicted pro se co-defendant
Advocate-Witness Caskey, makes false claims of a loan and falsely claims entitlement to
fraudulent charges thereon. Defendants admit material misrepresentations regarding
false statements and false claims of entitlement to charges on a loan in violation of
FDCPA/SCCPC/SCUTPA (Fair Debt Collection Practices Act/ South Carolina Consumer
Protection Code/ South Carolina Unfair Trade Practices Act). Plaintiff expressly
appealed to the then Presiding District Court Judge for disposition on disqualification
which was denied.
Further, the prohibition against advocate as witness is a substantial right. See,
e.g., Hagood v. Sommerville, 362 S.C. 191, 607 S.E.2d 707 (2005). See Brooks v. SCCID
and OID, South Carolina Court of Appeals, decided February 15, 2017, App. Case No.
2014-002477. Plaintiff seeks compliance with the prohibition against advocate as witness
and disqualification of conflicted pro se co-defendant attorneys, who are necessary
witnesses in this case, from representing any party other than themselves. See Brooks v.
SCCID and OID, South Carolina Court of Appeals, decided February 15, 2017, App. Case
No. 2014-002477. As an example, the garden variety “Payday Lender” corporation and its
perpetrator of wrongdoing engaging in the same or similar bad faith debt collection
practices as defendants would not be allowed to represent the corporation in court for
multiple reasons, including but not limited to, promoting full and fair determination on
the merits and other public policy considerations. Accordingly, conflicted Pro Se CoDefendant Advocate-Witness Caskey has disqualified herself.
19

Consistent with governing law in South Carolina Rule 3.7, RPC, Rule 407, SCACR,
the New York Rule 3.7 provides that “’a lawyer shall not act as advocate before a tribunal
in a matter in which the lawyer is likely to be a witness on a significant issue of fact.’...
New York courts {and South Carolina courts) have interpreted Rule 3.7 to require the
disqualification of counsel upon the movant's showing that the attorney's testimony is
necessary and that there is a substantial likelihood of prejudice if the attorney continues
to act as an advocate. See Capponi v. Murphy, 772 F.Supp.2d 457, 471-72
(S.D.N.Y.2009).” In re Liotti, 667 F.3d 419 (4th Cir., 2011)(emphasis supplied). See, e.
g, McRae v. Minor {S.D. Miss., 2017) [“Specifically, the Court finds that pro se attorneys
should be disqualified from representing any party other than themselves in this case,
including the corporate defendant.” (Emphasis supplied.)] “As the ethical consideration
suggests, even in the ‘usual’ case the advocate as witness poses myriad threats to the
integrity and reliability of the judicial process. Those difficulties multiply when the
lawyer testifies to his own impropriety. The importance of the lawyer's credibility as a
witness, and the necessity of an opportunity effectively to cross-examine him, increase
when the lawyer testifies.... Furthermore, there may arise in such an instance issues not
only of credibility and effective advocacy, but of potentially differing interests of the
lawyer and his client.” Dasher v. Stripling, 685 F.2d 385 (llth Cir., 1982) (emphasis
supplied). The record reflects a substantial likelihood of prejudice if the attorney
continues to act as an advocate. Accordingly, motion to strike and disqualify should be
granted and dismissal should be reversed.
Under theses circumstances, a corporation may not appear pro se. "It has been the
law for the better part of two centuries .. . that a corporation may appear in the federal
20

courts only through licensed counsel.” Rowland v. Cal. Men's Colony, Unit II Men's
Advisory Council, 506 U.S. 194, 201-02 (1993). "[A] corporation may not appear pro se
but must be represented only by duly licensed counsel." Alhed Colloids, Inc. v. Jadair,
Inc., 139 F.3d 887, 1998 WL 112719, at *1 (4th Cir. 1998)(citing Rowland v. California
Men's Colony, 506 U.S. 194 (1993).

Although 28 U.S.C. Sec. 1654 (1976) provides that "[i]n all courts of the United States,
the parties may plead and conduct their own cases personally or by counsel," it is
established that a corporation, which is an artificial entity that can only act through
agents, cannot proceed pro se. E.g., Shapiro, Bernstein & Co. v. Continental Record Co.,
386 F.2d 426, 427 (2d Cir. 1967) (per curiam) (reversing order that allowed action to
proceed against a defendant corporation pro se); Southwest Express Co. v. ICC, 670 F.2d
53, 55 (5th Cir. 1982) (per curiam); Brandstein v. White Lamps, Inc., 20 F.Supp. 369, 370
(S.D.N.Y.1937) ("While a corporation is a legal entity, it is also an artificial one, existing
only in the contemplation of the law; it can do no act, except through its agents....Since a
corporation can appear only through its agents, they must be acceptable to the court.'
attorneys at law, who have been admitted to practice, are officers of the court and subject
to its control.")
Jones v. Niagara Frontier Transp. Authority, 722 F.2d 20 (2nd Cir., 1983).
As a corollary, the importance of the advocate-witness prohibition under these
circumstances is underscored in the following case:
Because artificial entities cannot take oaths, they cannot make affidavits. See, e.g., In re
Empire Refining Co., 1 F.Supp. 548, 549 (SD Cal. 1932) ("It is, of course, conceded that a
corporation cannot make an affidavit in its corporate name. It is an inanimate thing
incapable of voicing an oath"); Moya Enterprises, Inc. v. Harry Anderson Trucking, Inc.,
162 Ga.App. 39, 290 S.E.2d 145 (1982); Strand Restaurant Co. v. Parks Engineering Co.,
91 A.2d 711 (D.C.1952); 9A T. Bjur & C. Slezak, Fletcher Cyclopedia of Law of Private
Corporations § 4629 (Perm ed. 1992) ("A document purporting to be the affidavit of a
corporation is void, since a corporation cannot make a sworn statement") (footnote
omitted).
Rowland v. California Men Colony, Unit IiMen Advisory Council, 506 U.S. 194, 113 S.Ct.
716, 121 L.Ed.2d 656 (1993)

In the instant case, the pro se co-defendant advocate-witness has disqualified herself by
21

entering unsworn testimony. Moreover, ethical and other considerations require
disqualification of the pro se co-defendant advocate-witness as a necessary witness to
material facts. Further, the prohibition against advocate as witness is a substantial right.
See, e.g., Hagood v. Sommerville, 362 S.C. 191, 607 S.E.2d 707 (2005). Because, including
but not limited to, the corporate defendant is unable to make a sworn statement, the
evidence is not otherwise or sufficiently available. See South Carolina Rule 3.7, RPC,
Rule 407, SCACR. See Brooks v. SCCID and OID, South Carolina Court of Appeals,
decided February 15, 2017, App. Case No. 2014-002477. Because the pro se co-defendant
advocate-witness is disqualified, there is no qualified fifing for the corporate defendant.
Moreover, plaintiff is prejudiced by denial of due process including, but not limited to,
opportunity to cross-examine the advocate-witness and present evidence. Despite its
well-publicized financial wherewithal, pro se corporate defendant is unwilling or unable
to obtain outside counsel. Haynsworth has placed the court in an untenable position, not
. to mention the position in which Haynsworth has placed and/or corralled Conflicted Pro
Se Co-Defendant Advocate Witness Caskey. “Since a corporation can appear only
through its agents, they must be acceptable to the court; attorneys at law, who have been
admitted to practice, are officers of the court and subject to its control." Jones v. Niagara
Frontier Transp. Authority, 722 F.2d 20 (2nd Cir., 1983) (citations omitted) (emphasis
supplied). Governing law controls and prohibits the conflicted pro se co-defendant
advocate-witness from representing the corporate defendant. See South Carolina Rule
3.7, RPC, Rule 407, SCACR. See Brooks v. SCCID and OID, South Carolina Court of
Appeals, decided February 15, 2017, App. Case No. 2014-002477. Objection is timely
raised in USAP4 No. 18-2255 and USAP4 No. 19-1572.
22

Moreover, respondents admit misrepresentations to the court in the attached
motion wherein conflicted pro se co-defendant advocate-witness admits the individual co­
defendants had no legal interest and therefore, no standing to bring the action. Moreover,
in that state court motion, respondents misrepresented, “There are no pending claims
asserted by plaintiff against defendants in this matter.” The record reflects defendants
all in concert knew or should have known that statement is false. Pro se co-defendant
advocate-witness is disqualified from representing any party other than herself in this
case as a necessary witness to material facts. Specifically, conflicted pro se co-defendant
. advocate-witness Caskey and her partner in crime Ms. Eldridge made material
misrepresentations, which were rejected by the South Carolina Supreme Court and
which were made in the state court proceedings on behalf of conflicted pro se co­
defendants all in concert. Ms. Eldridge and defendants all in concert knew or should
have known of failure to comply with Rule 265(c), SCACR, “If substitution of a party is
desired for any reason other than death or incompetency, substitution shall be by motion
to the appellate court.” Rule 265(c), SCACR. The trial court order of substitution of
parties while the case was pending in the appellate court was entered ex parte in the
state trial court with no certificate of service at a time when exclusive appellate
jurisdiction was vested in the South Carolina Supreme Court. Respondents have unclean
hands and respondents prejudiced the petitioner, the petitioner’s claims, the courts, and
the appeal. Conflicted pro se co-defendant advocate-witness has disqualified herself by
entering unsworn testimony in the instant case.' that prejudicial error requires reversal
including but not limited to, where the appellant was denied the substantial right to
cross-examine and present evidence regarding that unsworn testimony by untrustworthy
23

officer of the court who is a necessary witness to material facts with manifest conflict of
interesst regarding her corporate client. The position in which Haynsworth has placed
the court is untenable, not to mention the position in which Haynsworth has placed
conflicted pro se co-defendant Advocate-Witness Caskey. The lower court wrongfully
relied on unsworn testimony of conflicted pro se co-defendant advocate-witness for
dismissal. The court and petitioner are prejudiced. Accordingly, the lower court orders
should be reversed.

VI. Article III Judicial Officer.
Jurisdiction cannot be waived. In the March 29, 2019, Order, the referral to a
magistrate is based on error of material fact and law including but not limited to, there is
no consent to a magistrate. Moreover, the plaintiffs response in opposition to defendants’
motions timely requested appeal to and de novo disposition by an Article III
Constitutional Judicial Officer (not a magistrate). See plaintiffs Opposition to Motions to
Dismiss, pp. 1-2. Wimmer v. Cook, 774 F.2d 68 (4th Cir., 1985); Roell v. Withrow, 538
U.S. 580 (2003). Further, Local Civil Rule 73.02(B)(2) (D. S.C.), recited and relied upon,
is not applicable. To the extent Local Civil Rule 73.02(B)(2) conflicts with constitutional
protections including, but not limited to, the right to an Article III Constitutional Judicial
Officer, plaintiff respectfully objects and asserts constitutional challenge and prejudicial
error. Without being disagreeable, there is disagreement on the Report and
Recommendation (R&R), which plaintiff asserts is thoroughly biased including, but not
limited to, the magistrate’s weaponized pejorative code words adopted by the Presiding

24

District Court Judge: “plaintiff is a frequent filer in this Court.” See, e.g., Cuthbertson v.
Biggers Bros., Inc., 702 F.2d 454, 459 (4th Cir. 1983) (undercuts appearance of a
disinterested court). For the record, there are three cases filed: a Medicare appeal from
2011 which was pending with the ALJ for yearsO); a complete diversity case! and the
instant case.
Without consent, there is no jurisdiction for the R&R or its adoption by the lower
court. To the extent the unwary pro se litigant is subjected to a magistrate without
express, voluntary consent, this issue is capable of repetition and capable of evading
judicial review. It is respectfully submitted that overworked and underpaid district court
judges may not be neutral decision-makers, consciously or sub-consciously, in denying de
novo determination by an Article III Constitutional Judicial Officer, not a magistrate. To
the extent the unwary pro se litigant is subjected to a separate second class system of socalled justice dispensed by a non-Article III Judicial Officer without express, voluntary
consent, there is an abundant body of law definitively determining separate is never
equal.
Therefore, in performing a de novo review, the district judge must exercise "his
non-delegable authority by considering the actual testimony, and not merely by reviewing
the magistrate's report and recommendations." Wimmer v. Cook, 11A F.2d 68, 76 (4th
Cir. 1985). “The Supreme Court has stated that the Constitution requires that the
judicial power of the United States be vested in courts having judges with life tenure and
undiminishable compensation in order to protect judicial acts from executive or
legislative coercion. O'Donoghue v. United States, 289 U.S. 516, 531, 53 S.Ct. 740, 743, 77

25

L.Ed. 1356 (1933). Pursuant to 28 U.S.C. § 636(b)(3), appellant’s timely express request
for de novo disposition by an Article III judicial officer is a substantial right. The record
reflects clear error because the outcome would be different but for impermissible
delegation which resulted in unauthorized prejudicial R&R with arbitrary and capricious
rulings adopted by the district court. See Branch v. Umphenour, No. 17-15369 (9th Cir.
2019) (filed Sept. 5, 2019). To the extent, the record on appeal purports to contain consent
for referral to the magistrate, that consent is falsified. Appellant’s reasonable and timely
request to review appellant’s record on appeal was unreasonably denied.
The record reflects clear error which affects a substantial right. An error affects
substantial rights if it "affected the outcome of the district court proceedings." United
States v. Olano, 507 U.S. 725, 734 (1993). “’The standard for showing that is the familiar
reasonable probability of a different result formulation, which means a probability
sufficient to undermine confidence in the outcome.’ Id. (quotation omitted).” United
States v. Heath, 419 F.3d 1312, 1316 (llth Cir., 2005). But for the impermissible
delegation and/or unauthorized R&R, the outcome would be different because in this case
there would be no adoption of R&R with arbitrary and capricious rulings. Summary
dismissal by a magistrate without jurisdiction, without voluntary express consent, and
without meaningful lower court review violates 28 U.S.C. § 636(b)(3), the Constitution,
and other laws, thereby adversely impacting fundamental fairness, integrity, and/or
public reputation of the lower court. Accordingly, the lower court orders should be
reversed.

26

VII. Dismissal admittedly based on untrustworthy hearsay outside the record is
reversible as a matter of law.
Serious questions are raised regarding the R&R’s dismissal based on evidence
outside the record in the form of unknown, unverified content admittedly gleaned from
the internet. Timely request for notice of and opportunity to respond was unreasonably
denied without comment.
In analyzing an ex parte communication issue, the court recognized that "[t]he essence of
procedural due process is notice and an opportunity to be heard." 661 F.2d at 679 (citing
Mullatte v. Cent. Hanover Bank & Trust Co., 339 U.S. 306, 813*14, 70 S.Ct. 652, 94 L.Ed.
865 (1950) (observing that right to be heard "has little reality or worth unless one is
informed that the matter is pending and can choose for himself whether to appear or
default, acquiesce or contest")); see also United States v. Minor, 228 F.3d 352, 356 (4th
Cir.2000) (recognizing adequacy of notice as "a matter of obvious constitutional
magnitude"); Elmco Props., Inc. v. Second Nat'l Fed. Sav. Ass'n, 94 F.3d 914, 920*21 (4th
Cir.1996) (explaining that parties must be given constitutionally adequate notice).
Simer v. Rios, 661 F.2d 655 (7th Cir.1981) (emphasis supplied).
Matters of exceptional importance and “obvious constitutional magnitude” are at stake.
United States v. Minor, 228 F.3d 352, 356 (4th Cir.2000). Petitioner timely and
respectfully requested notice and opportunity to respond to the magistrate’s search and
solicitation over the internet of evidence on which he based dismissal. Petitioner is
prejudiced because there would be no dismissal but for the untrustworthy internet
hearsay outside the record. Accordingly, the lower court orders should be reversed.

VIII. Dismissal is premature.
Dismissal is premature due to, including but not limited to, the magistrate’s
27

Wright & Miller, Federal Practice and Procedure § 2741, p. 543 (1983); 6 Moore's Federal
Practice f 56.02[6], p. 56-39 (2d) ed. 1990); see, e.g., First Chicago Int'l v. United
Exchange Co., 836 F. (2d) 1375 (D.C. Cir.1988); Gary Plastic Packaging Corp. v. Merrill
Lynch, Pierce, Fenner & Smith, Inc., 756 F. (2d) 230 (2d Cir.l985)(emphasis supplied).

Without discovery, petitioner and the court are prejudiced. This issue was raised but not
addressed. Accordingly, dismissal is premature.

XI. The FDCPA applies to this debt which arose out of a consumer transaction.
A consumer debt is defined under the FDCPA as;
(A)ny obligation or alleged obligation of a consumer to pay money arising out of a
transaction in which the money, property, insurance, or services which are the subject of
the transaction are primarily for personal, family, or household purposes, whether or not
such obligation has been reduced to judgment.
Tierney v. Unique Mgmt. Servs., Inc., (D. S.C., 2016).

The petitioner is an individual consumer, not a business entity, for services; the debt
arose out of a consumer transaction for legal services primarily for the support and
education of dependent minor children, family, and other household purposes.
Zimmerman v. HBO Affiliate Group, 834 F.2d 1163, 1168-69 (3d Cir.1987). But for the
consumer transaction for legal services, we would not be here. In state court, conflicted
pro se co-defendant Advocate-Witness Caskey represented the debt was the same type of
consumer debt collection which defendant “has done a lot of.” Transcript of the March 10,
2017, Hearing, p. 18, line 1-2. Defendants are debt collectors regularly engaged in the
collection of debt for others and defendants violated the FDCPA, including but not limited
to, false, deceptive misrepresentations, and/or false claims of entitlement to wrongful
charges. Moreover, it is unconscionable to deprive a litigant of due process, individual,
29

property, and other state and Federal constitutional and statutory protections, rights,
and laws. The case of Mabe v. G.C. Services Ltd. Partnership, 32 F.3d 86 (4th Cir., 1994),
provides as follows:
The case law interpreting this section of the FDCPA is sparse. At least two courts of
appeals, however, have held that the type of "transaction" which creates a "debt" under
the FDCPA is one in which "a consumer is offered or extended the right to acquire
'money, property, insurance, or services' which are 'primarily for household purposes' and
to defer payment," Zimmerman v. HBO Affiliate Group, 834 F.2d 1163, 1168-69 (3d
Cir.1987). Bloom v. I.C. Sys., Inc., 972 F.2d 1067, 1068 (9th Cir.1992) (holding that the
FDCPA applies only to "consumer debts" incurred "primarily for personal, family, or
household purposes"); Staub v. Harris, 626 F.2d 275, 278 (3d Cir. 1980) (holding that "at a
minimum, the [FDCPA] contemplates that the debt has arisen as a result of the rendition
of a service or purchase of property or other item of value").
Mabe v. G.C. Services Ltd. Partnership, 32 F.3d 86 (4th Cir., 1994).
The intended consumer use is determined at the time the debt is incurred, not at
the time of collection. Miller v. McCalla, 214 F.3d 872 (7th Cir., 2000). But for the
consumer contract for legal services, we would not be here.
By analogy, the Fifth Circuit ruled that “plaintiffcontracted. for personal and
family services, i.e., legal services..Moreover, the plain meaning of "arising out of' as
"stemming from" leads us to conclude that the obligation to pay arose from the
contract/transaction for legal services. Taylor v. Javitch, Block & Rathbone, LLC
(N.D. Ohio, 2012) (citing Hamilton v. United Healthcare ofLouisiana, Inc., 310 F.3d 385
(5th Cir. 2002) (emphasis supplied). Accordingly, the FDCPA applies to this debt which
arose out of a consumer transaction.
To establish a claim under the FDCPA, "a plaintiff must prove that:
(l) the plaintiff has been the object of collection activity arising from consumer debt

30

(in this case, the SCCPC/SCUTPA incorporate the FDCPA to apply to this creditor in a
consumer transaction for services and the SCCPC/SCUTPA incorporate the
requirements under 15 U.S.C. Section 1692g, many of which are violated in the demand
letter)',
(2) the defendant is a debt collector as defined by the FDCPA
(in this case, the SCCPC/SCUTPA incorporate the FDCPA to apply to a first party
creditor who is also a debt collector for debt owed to others)', and
(3) the defendant has engaged in an act or omission prohibited by the FDCPA
(in this case, the SCCPC/SCUTPA incorporate the FDCPA to require validation notices
which are not contained in Ex. B to the current complaint, the demand letter, or any
other notice from defendants in violation of 15 U.S.C. Section 1692(g), to prohibit
wrongful charges or amounts, to prohibit false and/or deceptive information, and to
prohibit the abundant unconscionable acts reflected in the record including, but not
limited to, unconscionable conspiracy to deny due process,, failure to provide verified
petition which is a fatal defect, failure to provide validation notice, failure to provide
verification/validation upon dispute, and/or other violations of 15 U.S. C. § 1692g and the
SCCPC/SCUTPA).'"
Boosahda v. Providence Dane LLC, 462 F. App'x 331, 333 n.3 (4th Cir. 2012) (quoting
Ruggia v. Wash. Mut., 719 F.Supp.2d 642, 647 (E.D. Va. 2010); see Webster v. ACB
Receivables Mgmt, Inc., 15 F. Supp. 3d 619, 625 (D. Md. 2014); Stewart v. Biermanl 859
F.Supp.2d 754, 759 (D. Md. 2012). "Debt collectors that violate the YDG?k(SCCPC) are
liable to the debtor for actual damages, costs, and reasonable attorney's fees." Russell,
763 F.3d at 389 (citing 15 U.S.C. § 1692k(a)(l), (a)(3)).
Garner v. ClaimAssist, LLC(D. Md., 2018) (Aug. 9, 2018) (emphasis supplied).

In the instant case, plaintiff entered a dispute regarding wrongful charges and amounts.
Defendants failed and refused to provide validation/verification upon dispute. Instead.
defendants engaged in wrongdoing including, but not limited to, unconscionable denial of
constitutional rights, unconscionable ex parte contacts, and unconscionable confiscation
of unearned filing fees in order to evade the merits. Defendants failed to comply with the
FDCPA/S C CPC/S CUTPA.
“The Fourth Circuit recently considered a similar case, Powell v. Palisades
Acquisition XVI, LLC, 782 F.3d 119 (4th Cir. 2014). In that case, a judgment for a
31

consumer's credit card debt was assigned to a debt collector. Id. at 121. The debt collector
filed an assignment of judgment with the court that reported a principal amount of
$11,727.99 instead of the correct amount of $10,497.21. Id. at 122. It also stated that the
debtor had not made any payments even though she had made $2,700 in payments. Id.
Thus, the assignment over-reported the amount the debtor owed by $3,930.78....The
Fourth Circuit determined that the misstatement in the initial assignment was a
material misrepresentation because "the least sophisticated consumer could be led to
decide to pay far more than she otherwise would have paid." Id. At 127. Alewerki v.
Anaya Law Grp., 868 F.3d 771 (9th Cir., 2017).
From the case of McCray v. Samuel I. White, P.G (D. Md., 2017) (March 31, 2017),
“(t)he Fourth Circuit first concluded that ‘nothing in [the] language [of the FDCPA]
rpqniros that a debt collector's misrepresentation [or other violative actions] be made as
part of an exnress demand for navment or even as part of an action designed to induce
the debtor to pay.’ Id. at 359 (quoting Powell v. Palisades Acquisition XVI, LLC, 782 F.3d
119, 123 (4th Cir. 2014) (internal quotation marks omitted)). Rather, ‘to be actionable
under ... the FDCPA, a debt collector needs only to have used a prohibited practice in.
connection with the collection of any debt or in an attempt to collect any debt. Id.
(quoting Powell 782 F.3d at 124). Accordingly, based on the Fourth Circuit's reasoning in
McCray I. the Court concludes as a matter of law that under the FDCPA, Defendants
were debt collectors pursuing debt collection activity.” McCray v. Sam uel I. White, P. C.
(D. Md., 2017) (March 31, 2017). Accordingly, unconscionable attempts to deny including,
but not limited to, constitutional rights are actionable under FDCPA/SCCPC/SCUTPA.

32

Harm to the public includes, but is not limited to, the following:
the appearance of impropriety/impropriety in fact of wrongdoing by defendants all in
concert misusing and abusing their positions as officers of the court to, including, but not
limited to, deny constitutional rights! to place “the proverbial butcher’s thumb” on the
scales of justice! to materially omit/misrepresent the unpublished status of a John Doe
order! to make false/deceptive claims regarding prior representation including, but not
limited to, claiming loan documents and entitlement to wrongful charges thereon! to
deprive a former client/litigant of due process, individual, property, and constitutional
rights including, but not limited to, the right to defend, to represent oneself, and to file! to
cause confiscation of unearned filing fees and wrongful $2500.00 in defendants’ attorneys
fees paid! to cause denial of meaningful opportunity to be heard, due process, equal
protection, and adequate record for meaningful judicial review and appeal! and to fail to
comply with mandatory jurisdictional court and/or filing fees any other lawyer or party is
required to pay. Defendants all in concert have conspired to, including but not limited to,
violate FDCPA/SCCPC/SCUTPA and to deny constitutional rights. Accordingly, the
lower court orders should be reversed.

X. Error of material fact and law.
Moreover, it is error of material fact and law for defendants to conflate a
referee/master with a state circuit court judge. A referee/master has no general
jurisdiction and only that jurisdiction expressly afforded him or her by a valid order of
reference and by the authorizing statutory law cited. In"this case, the order of reference is
33

invalid and fatally defective and the statutory law cited as authority for the order of
reference does not exist. Further, there is no jurisdiction to conspire with legal
malpractice defendants to harm plaintiff and/or essentially fix the outcome of a case. In
Dennis v. Sparks, 449 U.S. 24, 28-29 (1980), the U.S. Supreme Court held that private
parties who conspired with a judge to fix a case acted under color of law. The record
reflects evidence of lack of jurisdiction, lack of official capacity including lack of valid
order of reference, and/or lack of authority including, but not limited to, failure of
defendants all in concert to comply with mandatory jurisdictional court or filing fees as
documented on the case summary sheet. The record includes abundant evidence of
unofficial and/or administrative wrongdoing by defendants all in concert including, but
not limited to, lack of official capacity,' administrative wrongdoing; lack of jurisdiction;
lack of authority for the ex parte February 9, 2017, hearing/order; wrongdoing outside the
scope of authority; confiscation of plaintiffs unearned fifing fees,' failure of respondents to
comply with multiple mandatory and/or jurisdictional court and fifing fees;
impermissible/unconscionable ex parte communication,' and/or lack of valid order of
reference, which constitute exceptions to a referee/master’s immunity. In addition, the
conspiracy to harm claims do not require unlawful acts.
The record reflects respondent referee/master concedes exceptions to immunity,
which petitioner has pled including, but not limited to, lack of valid order of reference.
Specifically, the order of reference is invalid including but not limited to, governing law
under Toyota ofFlorence, Inc. v. Lynch, 314 S.C. 257, 442 S.E.2d 611, 617 (1994). The
record reflects defendants’ so-called verified petition is unverified. See copy of

34

defendants’ unverified petition attached to Defendants’ Entry No. 27, Ex.4, p. 2. See
South Carolina Court Administration Form 403, Verification. Lack of verified petition is
a fatal defect precisely because it is a summary proceeding. Id. Petitioner is prejudiced
because defendants’ unverified petition makes false statements claiming false charges
which are disputed. Despite timely request, defendants have failed to provide
documentation they cited or itemization with verification. Accordingly, the lower court
orders should be reversed.

XI. Collateral Issue

The lack of any legal requirement other than the talismanic recitation of
“frivolous”will foreclose meaningful review and, in this case, meaningful opportunity to
be heard. Cooter & Gell v. Hartmarx Corp., 496 U.S. 384, 402, 110 S.Ct. 2447, 110
L.Ed.2d 359, 58 USLW 4763 (1990) (emphasisi supplied). Specifically, the “decision of
whether to award sanctions is a collateral issue and does not constitute a ruling upon the
merits of the case. ...See Cooter & Gell v. Hartmarx Corp., 496 U.S. 394, 396, 110 S.Ct.
2447, 110 L.Ed.2d 359 (1990). Pee Dee Health Care, P.A., v. Estate of Thompson, 418 S.C.
557, 795 S.E.2d 40 (S.C.App. 2016). Because SCFPA sanctions constitute an incidental or
collateral proceeding, a SCFPA sanction order is not a traditional judgment on the
underlying cause of action. Per the case of State v. Cooper, 342 S.C. 389, 536 S.E.2d 870
(2000), no exception to automatic stay on appeal applies because the matter is incidental
or collateral to the underlying claim and does not constitute a traditional money
judgment on the underlying claim as contemplated by the statute, S.C. Code § 18-9-130.
35

See Toal et al., Appellate Practice in South Carolina (3d ed. 2016), p. 341, 344. Because
the revised SCFPA order is a collateral issue and does not constitute a ruling on the
merits and because the issues are not the same, the plain language of the John Doe order
is not applicable in this case. Accordingly, the lower court orders should be reversed.

XII. Request for leave to amend.
Petitioner respectfully requests leave to amend. Leave to amend a pleading “shall
be freely given when justice so requires.” Fed.R.Civ.P. 15(a). “[Lleave to amend a
pleading should be denied only when the amendment would be prejudicial to the opposing
party, there has been bad faith on the part of the moving party, or the amendment would
have been futile.” Laber v. Harvey, 438 F.3d 404, 426-27 (4th Cir. 2006) (citations
omitted). The petitioner respectfully submits there is no legal prejudice, bad faith, or
futility. Accordingly, leave to amend is respectfully requested.

36

CONCLUSION

WHEREFORE petitioner respectfully requests this Court grant the petition for
writ of certiorari.

Respectfully submitted.

C. Holmes~~~~~~~~~ POB 187
SI, SC 29482-0187
843.883.3010

37

